                  U.S. SMALL BUSINESS ADMINISTRATION
                        OFFICE OF INSPECTOR GENERAL
                            Washington, DC 20416


                                                                         AUDIT REPORT
                                                                    ISSUE DATE:
                                                                    SEPTEMBER 07, 2000
                                                                    REPORT NUMBER: 0-25




TO:            Theodore R. Wartell, Director, Office of Policy
               Don Christensen, Associate Administrator for Investment



FROM:          Robert G. Seabrooks,
               Assistant Inspector General for Auditing

SUBJECT:       Audit Report – Results Act Performance Measurement for the Small Business
               Investment Company Program

        Attached is a copy of the subject audit report. The report contains one finding and seven
recommendations. You concurred with three of the recommendations but non-concurred with
the remaining four. The four recommendations will be elevated to the Deputy Administrator for
resolution during the audit follow-up process. We have synopsized your comments in the report
and included them as an attachment.

       The finding included in this report is the conclusion of the Office of the Inspector
General Auditing Division based upon the auditors testing of the auditee’s operations The
finding and recommendations are subject to review and implementation of corrective action by
your office in accordance with existing Agency procedures for audit follow-up and resolution.

        Please provide your management response to the recommendations within 30 days from
the date of this report on the attached SBA Form 1824, Recommendation and Action Sheet.

       Should you or your staff have any questions or wish to discuss the issues further, please
contact Garry Duncan, Director, Credit Programs Group at 202-205-7732.



Attachment
                                           AUDIT REPORT

                     RESULTS ACT PERFORMANCE MEASUREMENT
                                    FOR THE
                       SMALL BUSINESS INVESTMENT COMPANY
                                    PROGRAM

                                 AUDIT REPORT NUMBER 0-25

                                          September 07, 2000




The finding in this report is the conclusion of the OIG’s Auditing Division based on testing of SBA
operations. The finding and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
proprietary information subject to the provisions of 18 USC 1905 and must not be released to the public or
another agency without permission of the Office of Inspector General.
                                      AUDIT REPORT
                        RESULTS ACT PERFORMANCE MEASUREMENT
                                         FOR THE
                      SMALL BUSINESS INVESTMENT COMPANY PROGRAM

                                                        Table of Contents

                                                                                                                           Page

SUMMARY....................................................................................................................... i


INTRODUCTION

          A. Background ........................................................................................................ 1

          B. Objectives and Scope......................................................................................... 2


RESULTS OF AUDIT

Finding and Recommendations

Better Performance Goals and Indicators Need to be Established and Validated
for the Small Business Investment Company (SBIC) Program………………………….. 4

     • Performance indicators do not measure program purpose......................................4
     • Performance indicators were not balanced..............................................................5
           o The job creation performance indicator has flaws .....................................5
           o Unavailability of data on job creation.........................................................6
           o The program lacked customer satisfaction and cost indicators as
              envisioned under the Results Act................................................................7
    • SBIC performance indicator data was not always reliable ......................................7
           o SBA inaccurately reported investment amounts and financings ................7
           o SBA lacked support for women and minority data.....................................8
     • Cause of deficient program indicators ....................................................................8
Recommendations ...............................................................................................................9
Management’s Response.....................................................................................................9
OIG Evaluation of Management’s Response......................................................................10
APPENDICIES

          A- Definitions
          B- Management’s Analysis of Financing Data
          C- Management Response
          D- Audit Report Distribution
                                           SUMMARY

        In late 1998, Congressional leaders requested that Inspectors General review how
effectively their agencies are measuring performance under the Government Performance and
Results Act of 1993 (Results Act) and the reliability of the underlying data. In response to these
requests, the Office of the Inspector General initiated a series of audits to evaluate the
performance indicators the Small Business Administration (SBA) developed for its major
programs.

       This report examines whether the Investment Division (ID) effectively implemented the
performance measurement requirements of the Results Act for the Small Business Investment
Company (SBIC) program.

        In enacting the Results Act, Congress intended to improve the efficiency and
effectiveness of Federal programs by establishing a system to set goals for program performance
and to measure results. To implement the Act, executive agencies must prepare multiyear
strategic plans, annual performance plans that include performance indicators, and performance
reports. Our audit objective was to determine if the ID is effectively implementing the
performance measurement requirements of the Results Act for the SBIC program. To answer
this objective, we determined if: (1) program goals and performance indicators align with the
mission, (2) the performance indicators focus on the results of the program in terms of efficiency
and effectiveness, and (3) reliable supporting data exists.

        We found that the SBIC program did not have performance goals and indicators to show
that the program was meeting certain purposes of the Small Business Investment Act. The
performance indicators listed in SBA’s fiscal year 2000 annual performance plan are activity-
oriented and do not address Results Act priorities, such as programmatic outcomes, customer
satisfaction, service quality, or cost. Also, some of the underlying data supporting performance
measurement data was not reliable. Specifically, 26 percent of the FY 1999-dollar amount of
SBIC financings were from prior years and most likely, some FY 1999 financings will be
reported in the FY 2000 report, due to untimely reporting by SBLCs. In addition, data for
performance goals and measures relating to whether a business was 50 percent owned by women
or minorities were unsupported.

        We recommend that the Director, Office of Policy provide specific guidance concerning
the preparation of organizational performance goals and indicators. In addition, a memorandum
of understanding should be executed with the Bureau of Labor Statistics or other statistical
gathering organization to obtain access to information on jobs created by SBA loans. Also, we
recommend that the Associate Administrator for Investments: (i) develop appropriate goals and
indicators, (ii) institute a strategy to verify and validate performance measurement data, and (iii)
require managers to assert to the accuracy and completeness of performance data.

        SBA management responded that the draft report was overly critical and misleading in its
treatment of the SBIC mission, adequacy of performance indicators, and implied absence of
validity and reliability of data and means to validate the data. Management disagreed with our
conclusion that the Investment Division had not fully implemented the requirements of the
Results Act. They added that the Annual Performance Plan is the Agency’s plan, not the
                                                   i
Investment Division’s, and that the Investment Division had more than 75 performance
indicators of which only six were allowed by the Agency to be included in the plan. They stated
that these performance indicators span areas important to management and demonstrate true
outcomes of the program.

       Management agreed to publish guidance on preparing organizational performance goals
and indicators, attempt to obtain job creation data from the Bureau of Labor Statistics, develop
outcome oriented performance indicators, and include performance indicators for cost and
customer satisfaction. Management disagreed with the remaining recommendations. These
recommendations will be elevated to the Deputy Administrator for resolution during the audit
follow-up process. We have attached the full text of management’s response as Appendix C.




                                                ii
                                         INTRODUCTION
A. Background
         In 1993, Congress passed the Results Act with the objective to improve Federal program
effectiveness and public accountability by promoting a new focus on results, service quality, and
customer satisfaction. The General Accounting Office (GAO) has interpreted the Act to mean there
should be a focus on Federal management and decision-making away from a preoccupation with the
activities that are undertaken and toward a focus on the results of those activities as reflected in
lives of the citizens government serves. Further, GAO believes the Results Act is intended to
improve the efficiency and effectiveness of Federal programs by establishing a system to set both
long-term strategic and annual goals for program performance and to measure results. Performance
indicators are values or characteristics used to measure results associated with annual goals. Also,
the Results Act requires agencies to prepare annual reports on their performance for the previous
fiscal year.

         The Office of Policy has overall responsibility for ensuring requirements of the Results Act
are carried out in the SBA. The Investment Division of SBA is responsible for administering Title
III of the Small Business Investment Act of 1958, as amended.

         The SBIC program implements Title III of the Small Business Investment Act of 1958, as
amended. Congress created the program because it determined that there were not adequate
facilities for providing long term financing to small business. Three situations in particular were
identified as calling for long term loans and equity financing:

       •   Inception of a new business,
       •   Growth, expansion, and maintenance of market position for an existing business, and
       •   Ownership transfers to continue a business’ existence.

As a result of Congressional identification of the above, the Small Business Investment Company
program was created to provide venture capital that is not available in adequate supply, to small
businesses to enable them to grow, modernize, and expand – and in the process – to improve and
stimulate the economy.

        More than 300 SBICs, which are privately owned and managed investment firms licensed
and regulated by SBA, carry out the program. These firms use their own capital, plus funds
borrowed at favorable rates with a SBA guarantee, to make venture capital investments in small
businesses. Each SBIC must make a showing of its knowledge, experience, and capability to make
the type of investments envisioned under the Act and meet certain minimum capital requirements.
According to SBA, as shown in the table below, Federally licensed SBICs handled over half of all
small business venture capital financing nationwide in fiscal year 1999. Totaling $4.2 billion, these
financings equal about 25 percent of the $16.7 billion in venture capital available to small
businesses. In fiscal year 2000, SBA expects to assist 3,700 small businesses with $3.5 billion in
Federally backed venture capital.




                                                  1
                                 SBIC's Share of the Venture Capital Market

        Performance Indicators                                          FY 1997/         FY 1998/        FY 1999/
                                                                        CY 1996          CY 1997         CY 1998
        # Venture Capital Financings by SBICs                           1,351            1,566           3,0961
        # Venture Capital Financings by Non-SBICs                       2,136            1,821           1,824
        Total Number of Financings                                      3,487            3,418           4,920
        SBIC percent of total number of financings                      38.7%            46.2%           62.9%

        $ of Venture Capital Financings by SBICs                        $2.1B            $2.9B           $4.2B
        $ Venture Capital Financings by Non-SBICs                       $10.1B           $11.2B          $12.5B
        Total Dollar Amount of Financings                               $12.2B           $14.1B          $16.7B
        SBIC percent of total dollar amount of financings               17.2%            20.6%           25.1%


Objectives and Scope

        The objective of the audit was to determine if the Investment Division is effectively
implementing the performance measurement requirements of the Results Act for the SBIC Program.
To fulfill this objective, we sought answers to three basic questions. Do the program's goals and
performance indicators align with its mission? Do the performance indicators show the results of
the program in terms of efficiency and effectiveness? How reliable is the supporting data?

        To answer the mission alignment question, we reviewed SBA’s strategic plan, the Fiscal
Year 2000 Annual Performance Plan, and the Draft 2001 Performance Plan. We developed a logic
model to identify the cause and effect relationships between the mission and purpose of the SBIC
program, its core business processes, key products, and desired program outcomes. To evaluate the
extent to which the performance indicators aligned with the statutory mission, we compared the
indicators to each aspect of the mission to ensure that all aspects were addressed. If there was not a
performance indicator for an aspect of the mission we considered this an area for improvement.

       To determine whether the performance indicators addressed the Results Act requirements
(program effectiveness and efficiency), we segregated the performance indicators into the following
categories:
       i)     Outcomes
       ii)    Customer satisfaction
       iii)   Partner satisfaction
       iv)    Cost
       v)     Output/process


1
  The number and amount of Capital Financings by SBICs was incorrect in SBA's FY 2001Annual Plan. We have inserted the
correct figures based on reported numbers from the Investment Division which also appear in SBA's FY 1999 Annual Performance
Report.

                                                              2
If a category did not have at least one performance indicator, we considered this an area for
improvement.

        To determine whether SBIC performance indicators were supported by reliable data, we
traced reported performance measurement data for FY1999 back to original supporting documents
in the Investment Division and at six SBICs. The underlying data was then analyzed to determine
whether it was sufficient, accurate, objective, and relevant.

        Fieldwork was performed from August 1999 through December 1999. The audit was
performed in accordance with generally accepted Government Auditing Standards. The outside
consulting firm, Results, Inc., was retained to assist us in the audit.




                                                  3
                                      RESULTS OF AUDIT

        Overall, we found that the SBA Office of Policy and the Investment Division had not fully
implemented the performance measurement requirements of the Results Act for the SBIC program
and some of its underlying performance data was not reliable. Specifically, the program did not
have performance indicators to determine the extent to which it was accomplishing its mission
under the Small Business Investment Act. We found that most indicators measured outputs, rather
than outcomes. Outputs measure the level of activity or effort that was realized. Outcomes assess
the actual results, effects, or impact of a program activity compared to its intended purpose. Much
of this problem stems from the culture of the program and the absence of effective SBA initiatives
or directives necessary to bring about a more outcome-oriented, customer-focused, cost-conscious
approach to program management. Last, some of the program’s performance data was not reliable,
due primarily to the lack of effective data verification and validation strategies and methods.

FINDING       BETTER PERFORMANCE GOALS AND INDICATORS NEED TO BE
              ESTABLISHED FOR THE SMALL BUSINESS INVESTMENT COMPANY
              PROGRAM

Performance indicators do not measure program purposes

         In passing the Results Act, Congress, among other things, sought to improve Congressional
decision-making. It wanted more information on the extent to which agencies were achieving
statutory objectives. To provide this information, agencies need performance goals and indicators
that reflect the purposes established in each program’s enabling statutes. Establishing this link to
the program’s mission enables an agency to gain agreement on what it is trying to accomplish and
how it will know if it is successful. Office of Management and Budget (OMB) guidelines state that,
performance goals and indicators should be centered on a program’s core purpose.

       The performance goal and indicators for the SBIC program focus on its mission of providing
venture capital to small businesses but did not fully comply with the Results Act as they did not
determine the extent to which the mission under the Small Business Investment Act was being
accomplished. For fiscal year 1999, the SBIC program had one annual performance goal, "Increase
venture capital" and six performance indicators:

   •   License 65 SBICs
   •   License $800 million in private capital
   •   Invest $3.2 billion in small business
   •   Invest in 3,400 small firms
   •   Invest 28 percent in companies that are 50 percent minority owned
   •   Invest 7 percent in companies 50 percent women owned

        We agree that increasing the number of SBICs, the dollars invested, and the number of firms
invested in shows that the program is supplementing the flow of venture capital. However, these
indicators do not address whether SBA is providing funds when and where the funds are not in
adequate supply, as required by the Small Business Investment Act. Our reading of the statute and

                                                 4
the legislative history leads us to conclude that the phrase “not in adequate supply” is a qualifier that
requires management to focus on specific small business needs. The legislative history shows two
of these needs to provide funding of startups and to specific types of businesses. While
management has identified geographic needs and a deficiency of venture capital within a specific
dollar range, none of these needs were incorporated in the goal or used as performance indicators in
the published performance plan.

        Management has interpreted the Agency’s SBIC mission as providing venture capital to all
small businesses, with special emphasis on minority and women owned businesses, as shown by the
performance indicators. They believe the phrase “not in adequate supply” has a broad application,
and therefore, was being met. Because this interpretation does not consider the phrase “not in
adequate supply” in conjunction with the targeted areas discussed in the legislative history, SBA
needs to clarify or add goals that fully address the mission under the Small Business Investment
Act. Management needs to obtain a clear definition of the phrase “not in adequate supply” in order
to be assured that performance goals to address the success of the program’s mission are being met.

Performance indicators were not balanced
        The SBIC program has identified six performance indicators to be used to gauge program
success. All of them relate to activities of the program, but none of them address performance
indicators such as program outcomes, customer satisfaction, partner satisfaction, or cost.
       The Results Act provides information to agencies about the types of performance indicators
they need to develop to effectively implement the Act. Congress believes that an Agency should
have a mix of performance indicators that permit it to weigh competing interests including:

    •   Outcome indicators linked to statutory objectives or the underlying purposes of a program;
    •   customer satisfaction indicators designed to provide information on the quality of services
        provided as well as the manner in which they are delivered; and
    •   cost indicators to tell how efficiently a program is operating.

A recent GAO report evaluating SBA's fiscal year 2000 Annual Performance Plan faulted the plan's
continuing focus on outputs rather than outcomes. 2 Our analysis reached conclusions similar to
GAO's finding. The Results Act offers an alternative if goals cannot be expressed in objective,
quantifiable and measurable form for a particular program activity. Agencies may obtain
authorization from the Office of Management and Budget to use an alternative form of expressing
performance goals or state why it is not feasible or practical to express a performance goal in any
form. SBA did not pursue these alternatives.

¡   The job creation performance indicator has flaws

      According to SBA’s fiscal year 2000 Annual Performance Plan, job creation is a major
outcome of the Agency. However, SBA does not measure the number of jobs created as a result of


2
  Managing for Results- Opportunities for Continued Improvement in Agencies' Performance Plans,
(GAO/GGD/AMID-99-215, July 1999)

                                                        5
the individual venture capital investments made in small businesses 3 . Instead, it calculates the
number of jobs created by the SBIC program by dividing the total dollar value of SBA-backed
investments by $32,500, which SBA believes is the level of investment required to create one new
job. According to SBA's FY 2000 Annual Plan, the $32,500 figure is the average of job creation
costs reported in separate studies conducted by the Association of Small Business Investment
Companies and the Investment Advisory Council. Following this approach, SBA estimates that the
SBIC program will create 83,000 jobs this year.

        SBA’s approach for measuring the jobs created by the SBIC program is flawed. It
calculated theoretical effects rather than observing actual effects. According to OMB Circular A-11
performance indicators must have their roots in actual results, not estimates. Moreover, SBA’s
estimating technique of taking the average of two studies conducted by different organizations at
different times with different assumptions can only yield accurate results by coincidence. To treat
different studies as similar and then project from the past to present is a flawed analytical practice
because of the extremely high-risk nature of assumptions about the extent to which past business
operations and conditions resemble those of today.

        SBA could obtain jobs created data through more rigorous enforcement of its own 1997
rules requiring SBICs to report it. 4 However, according to program officials, the response rate from
the SBICs was poor and the information that was provided had no assurance of reliability. The
officials stated that they were reluctant to insist that the SBICs submit the required data because of
the extra cost and paperwork burden it places on them. In addition, because job creation is an
outcome measure for all SBA credit programs, SBIC officials stated that they were waiting for an
agency-wide initiative to gather job creation information. At the time of our audit, SBA had not
developed an agency-wide method for obtaining this data.

¡   Unavailability of data on job creation

        Accurate, reliable job creation data already exists in Federal databases. The Bureau of
Labor Statistics (BLS) in the Department of Labor maintains detailed employment records on every
business in America. Each business has a unique Federal Employer Identification Number they use
to pay taxes, social security, and unemployment insurance. At least quarterly they report specific
information to Labor on the number of employees on their payroll. The BLS stores and analyzes
this information in its database. SBA also uses the Federal Employer Identification Numbers to
identify the small businesses it assists with loans and venture capital. Our preliminary discussions
with the BLS disclosed that SBA could obtain access to information on the exact number of net new
jobs created by entering into a joint memorandum of understanding. In addition, SBA would have
the capability to develop the historical baseline and trend analysis data it needs to demonstrate how
effectively its programs perform over time.

       Job creation is one of several outcome indicators SBA proposed which can reflect the
program's impact. While job creation is one way to measure the program results there is not

3
  The SBIC Program management disagreed that job creation was one of their program indicators .
4
  Title 13 CFR Section 107.630 (e) requires that SBICs report economic impact information annually for each financing
consisting of the full-time equivalent jobs created or retained, the impact of the financing on the revenues and profits of
the business, and on taxes paid by the business and its employees.

                                                            6
necessarily a direct correlation between SBA assistance and job creation. External factors and the
nature of the business can also have an impact.

¡   The program lacked customer satisfaction and cost indicators as envisioned under the Results
    Act

        The SBIC program's performance indicators do not include indicators of customer
satisfaction and cost as envisioned under the Results Act and as encouraged by OMB Circular
No. A-11, Section 220.9.

        Customer satisfaction indicators provide information about the quality of a program’s
products. SBIC program managers say they receive feedback from investment companies they
regulate, but do not get any feedback from the small business concerns the program was designed to
assist. An example of a customer satisfaction indicator would be the percentage of positive
comments from a customer survey or Internet feedback site. Another customer satisfaction
indicator would be a comparison of elapsed times for closing an investment against a set standard.

        Cost indicators measure the efficiency of program operations. In its report on the Results
Act, the Senate Committee on Governmental Affairs stated that the indicators of unit cost are those
most useful to agency staff in managing programs, rather than simply those indicators developed for
financial management. The Committee also expected agencies to assign high priority to the
development of unit cost indicators. 5 SBIC program managers stated that while they do not have
any cost indicators, the program is cost effective. According to SBA’s fiscal year 2001 annual plan,
tax revenues generated each year from successful SBIC investments more than cover the cost of the
program which was $6.8 million in FY 1999. Even if the program is cost effective overall, that
does not eliminate the need for cost type performance indicators. The purpose of these indicators is
to create a continuing focus on controlling costs over time. As envisioned under the Results Act,
cost goals and indicators would allow the program to demonstrate its cost effectiveness and identify
areas where further improvements are possible.

SBIC performance indicator data was not always reliable

       We concluded that some of the underlying data describing the level of the SBIC’s program
performance indicators or outputs were not reliable. We define data as reliable if it is complete,
accurate and consistently obtained over time. Specifically, we found that the number and dollar
amount of financing were not properly included in the year funds were disbursed. In addition, we
found no underlying data supporting minority and women owned business status reported by
SBICs.

¡   SBA inaccurately reported investment amounts and financing

      The number and dollar amount of financing by SBICs reported each year was neither
complete nor accurate due to late reporting by the SBICs. For FY 1999, the Investment Division

5
  Report of the Committee on Governmental Affairs United States Senate to Accompany S. 20, 103rd Congress, Report
103-58, June 16, 1993, page 30.

                                                        7
reported 3,096 financings for a total of $4.2 billion. This figure included 796 financings from prior
years, 719 financings from FY 1998, 67 from FY 1997, and 10 from years ranging from 1994 to
1996, that totaled $811 million. Therefore, it appeared to be overstated by 26 percent.

        Management collected the data on financings based on the date received as opposed to the
date the financing was made. When asked why the data was collected in this manner, management
stated that not all SBICs are prompt about their filings and that it is necessary to prepare investment
activity reports shortly after year-end. Management believes that if this process is consistently
applied, the number and dollars will average out the same over time. See Appendix B for
Management’s Analysis of Financing Data. While it is apparent that there is some “averaging out”
over time, this lacks precision because the number and dollar amount of financings vary
significantly each year, and because, as noted with FY 1999, the late reported financings include
multiple prior fiscal years. To ensure reliable information is reported to Congress, management
needs to obtain reports of financing information in the fiscal year of occurrence.

¡   SBA lacked support for women and minority data

         The SBICs reviewed did not have support for the data related to performance goals and
indicators of whether businesses were 50 percent owned by women or minorities. They reported
information on women and minority ownership on the basis of personal observation or knowledge
of the small business concern, but no records were kept to document the information reported. As a
result, none of the reported data was reliable because it was not complete and verifiable.

        Our review included Specialized Small Business Investment Companies (SSBICs), which
are SBICs that target entrepreneurs who are considered socially or economically disadvantaged.
The SSBICs maintain documentation known as an Eligibility Profile on each of the small business
concerns they serve. The profile attests to minority status of the small businesses receiving venture
capital assistance. In addition, the information is verified during the SSBIC examinations. The
“Profile", is prepared and signed by key officials of the SSBIC at the time of the initial financing. If
the SBIC program intends to retain as a performance indicator financings to minority and women
owned businesses, it must develop a data collection method similar to the SSBICs or otherwise
ensure that data is complete and verifiable.

Cause of deficient program indicators

        We believe the absence of specific guidance concerning the preparation of organizational
performance measurements contributed to the lack of results-oriented performance indicators. SBA
directives centered on the development of activity/output performance indicators and did not
discuss service quality, delivery, or customer satisfaction, and did not specifically require
organizations to have performance indicators that addressed their missions. The guidance did ask
organizations to develop cost performance indicators. Also, SBA directives did not provide
strategies for verification and validation of data.




                                                   8
Recommendations

        To improve the implementation of the performance measurement requirements of the
Results Act for the SBIC program, SBA should develop new performance goals and indicators and
validation procedures.

       We recommend that the Director, Office of Policy:

       1.A    Provide specific guidance concerning the preparation of organizational performance
              goals and indicators. This guidance should require that performance measurement
              requirements address a program’s statutory mission and include measurements of
              program outcomes, service quality, and cost. The guidance should also include a
              process that satisfies the Results Act provisions for obtaining OMB’s authorization
              to express a performance goal or measure in an alternative form when it is not
              feasible or practical for a particular program activity.

       1.B    Enter into a memorandum of understanding with the Bureau of Labor Statistics or
              other appropriate statistical gathering organization to obtain access to historical and
              quarterly information on the number of jobs created by its loan and venture capital
              programs over the past 5 years and in the future.

       We recommend that the Associate Administrator for the Investment Division:

       1.C    Obtain a working definition of the phrase “not in adequate supply” as used in the
              Small Business Investment Act.

       1.D    Develop a program goal that will address the entirety of the program’s mission
              including the adequacy of venture capital supply.
       1.E    Develop program indicators to gauge mission effectiveness, key outcomes, quality of
              services and the delivery processes, customer and partner satisfaction, and program
              costs.
       1.F    Institute a strategy to verify and validate performance measurement data.
       1.G    Assert to the accuracy and completeness of performance data, or if data is not
              currently accurate and complete, explain how the division plans to overcome any
              quality problems in the future.

Management’s Response

        According to SBA management, the report was overly critical and misleading in its
treatment of the SBIC mission, adequacy of performance indicators, and implied absence of validity
and reliability of data and means to validate the data. Management disagreed with our conclusion
that the Investment Division had not fully implemented the requirements of the Results Act. They
added that the Annual Performance Plan is the Agency’s plan, not the Investment Division’s, and

                                                  9
that the Investment Division had more than 75 performance indicators of which only six were
allowed by the Agency to be included in the plan. They stated that these performance indicators
span areas important to management and demonstrate true outcomes of the program.

         Management did, however, concur with some of the report recommendations. Specifically,
they concurred with recommendation 1.A to publish guidance on preparing organizational per-
formance goals and indicators; 1.B to attempt to obtain job creation data from the Bureau of Labor
Statistics; and, 1.E to develop outcome oriented performance indicators and to include performance
indicators for cost and customer satisfaction.

       Concerning the remaining four recommendations, management disputed our report and
provided the following comments:

       For recommendations 1.C and 1.D, management stated that “SBA has historically
       interpreted the statutory phrase “not in adequate supply” as a Congressional statement of
       fact justifying the program rather than a qualifier that requires the program to focus on
       specific small business needs.” They believe this position is supported by studies done by
       SBA’s Office of Advocacy that found that only about 1.3 percent of companies needing
       venture capital funding received it in 1999.

       For recommendations 1.F and 1.G., management stated that the approach used by the
       Investment Division for reporting the number and dollar amount of financings, and the
       number of businesses financed, is based on when the data is received in lieu of when the
       financing occurred. They stated that this approach has been used for years, will continue to
       be used, and is the more practical approach. They maintain that, contrary to what is stated in
       the audit report, this method actually understated the data.

       Concerning the Investment Division’s support for data on businesses owned by women and
       minorities, management stated that SBIC managers typically develop detailed knowledge of
       the ownership of prospective portfolio concerns as a result of their due diligence. For this
       reason, they believe the information is reliable. They further state that there are insufficient
       resources to allow the SBIC examiners to verify the data. See Appendix C for the full text
       of the response.

Evaluation of Management’s Response

              The Investment Division’s performance indicators as included in the SBA’s
       published Annual Performance Plan do not demonstrate the stewardship and accountability
       required by the Results Act. In the response, management states that the “more than 75”
       performance indicators developed by the Investment Division were related to things
       important to internal management. We believe the performance indicators should be
       focused on key things that are important to Congress and the American people. This is why
       the Results Act stresses having outcome-oriented goals and performance indicators to show
       whether the program is accomplishing the intended purpose. Of the “more than 75”
       performance indicators less than 7 were outcome-oriented. Performance indicators such as
       “how many small concerns receiving SBIC financing were still in business after 5 years” or


                                                  10
“how many small concerns experience growth in employment, revenue, or equity after
receiving SBIC financing” would demonstrate the kind of stewardship and accountability
demanded by the Results Act.

        As stated in our report, the Investment Division’s day-to-day efforts focus on the
SBICs as opposed to the small concerns the program was created to assist. This focus does
not require the development of outcome-oriented goals and performance indicators, and the
collection of reliable data.

     In regards to management’s response to the recommendations, we have the following
comments:

       1.A.    The response is acceptable.

        1.B. The response is acceptable. Milestones should be provided to show when the
actions will be accomplished.

        1.C. and 1.D. We do not agree with the Agency’s interpretation of the statutory
phrase “not in adequate supply.” While there may be a shortage of venture capital, we
believe the shortage is more acute in some geographical locations, in some industries, and to
some borrowers. The phrase “not in adequate supply” applies to these acute shortages. This
is a clear indicator that greater emphasis needs to be placed on geographical dispersion and
targeting of the SBIC investments.

        1.E. The response is acceptable. The addition of a partnership satisfaction
indicator would assist the Investment Division in evaluating the program.

        1.F. The approach used by the Investment Division to obtain data on the number
and dollar amount of financings and the number of businesses financed does not satisfy the
intent of the Results Act because it does not result in accurate data. Our review of a 5-year
period disclosed the data was overstated. Management believes that the Investment Division
maybe underreporting data overall. In either case, the data is not reported accurately.

        Additionally, management assumes that data not reported in the proper year is
reported in the next year. This is not necessarily true. Our review showed that data was
sometimes reported up to 6 years late. SBICs are required to report financing information
timely. Enforcement of this requirement would improve the accuracy of the data. SBICs
that do not report data timely should be penalized.

                Currently, SBIC managers are not self-certifying as to the gender or minority
status of the borrowers, and have no underlying support for the data being provided to SBA.
The SBICs could ask borrowers to provide this information in writing, thereby providing
documentation to support the data submitted to SBA.




                                         11
                                                                                           Appendix A


                                              Definitions

Financing - financial assistance provided to a small business by a Small Business Investment
Company

Outcomes - the results of a program activity compared to its intended purpose.

Outputs - the tabulation, calculation, or recording of activity or effort and can be expressed in a
quantitative or qualitative manner.

Performance goal - a target level of performance expressed as a tangible, measurable objective
against which actual achievement can be compared, including a goal expressed as a quantitative
standard, value, or rate.

Performance indicator - a particular value or characteristic used to measure output or outcome.

Verification - an assessment of data reliability considering data completeness, accuracy,
consistency, and the timeliness and the related control practices.

Validation - the process for ensuring that measured values adequately represent performance related
to the achievement of the agency program goals.
                                                                                     Appendix B

 Management’s Analysis of Financing Data

          SBICs are required to submit a Portfolio Financing Report (SBA Form 1031) within 30 days
 of each new financing of a small business. Unfortunately, not all SBICs are prompt about their
 filings, with the result that SBA receives many Portfolio Financing Reports well after the end of the
 relevant fiscal year. SBA summarizes investment activity in reports prepared shortly after fiscal
 year-end. If SBA attempted to summarize the activity by disbursement date for a given fiscal year
 as suggested by the OIG, it would be necessary to constantly revise the activity reports to reflect the
 many subsequent filings so as not to understate performance. Instead, SBA has elected to report
 investment activity based on the date the Portfolio Activity Report is received. This procedure
 eliminates the need to constantly restate the information, and when constantly applied over time, the
 results will average out the same. This is illustrated in the following schedules. (Please note that
 this information is disclosed exactly as reported by management and is not audited. Also, no data
 for these schedules was supplied by the OIG.)


                                NUMBER OF FINANCINGS
 Fiscal        # As Reported        # Per IG      Difference     % Over / (Under)
 Year        (Date of Receipt) (Date of Disburse)  From IG          Reported

  1995             2,221              2,174             47               2%          Over
  1996             2,107              2,570           (463)            -18%          Under
  1997             2,731              3,199           (468)            -15%          Under
  1998             3,456              3,277            179               5%          Over
  1999             3,096              3,396           (300)             -9%          Under
5-yr Total        13,611             14,616          (1,005)            -7%          Under

                           AMOUNT OF FINANCINGS (1998 corrected)
  Fiscal       $ As Reported        $ Per IG        Difference   % Over / (Under)
  Year       (Date of Receipt) (Date of Disburse)    From IG        Reported
  1995             $1,249            $1,235             $14            1%            Over
  1996             $1,616            $1,944           ($328)         -17%            Under
  1997             $2,369            $2,507           ($138)          -6%            Under
  1998             $3,239            $3,560           ($321)          -9%            Under
  1999             $4,221            $4,566           ($345)          -8%            Under
5-yr Total        $12,694           $13,812          ($1,188)         -8%            Under

                      NUMBER OF UNIQUE BUSINESSES FINANCED
  Fiscal       # As Reported        # Per IG        Difference   % Over / (Under)
  Year       (Date of Receipt) (Date of Disburse)    From IG        Reported
  1995             1,817              1,789              28            2%            Over
  1996             1,589              1,942            (353)         -18%            Under
  1997             1,903              2,272            (369)         -16%            Under
  1998             2,499              2,344             155            7%            Over
  1999             1,983              2,280            (297)         -13%            Under
5-yr Total         9,791             10,627            (836)          -8%            Under
                                                                                   Appendix C
         The Government Performance and Results Act (GPRA or the Results Act) has two
overriding goals: (1) to declare value to the citizen of public sector programs, and (2) to improve
internal management. Although the implementation of the Act requires submission of three formal
Agency documents, it also requires a major change in culture. It includes the inculcation of the
spirit of good stewardship and accountability and a system of performance management. We
believe the SBIC program management does this and therefore is compliant with the Results Act.

The OIG conclusion that the SBIC performance measures lacked balance is based upon SBA’s
“Fiscal Year 2000 GPRA Annual Performance Plan Congressional Submission.” However, that
document is the Agency’s performance plan; it is not the Investment Division’s performance plan
nor is it that of the SBIC program. The SBIC program is just one of the many tools that the Agency
utilizes to meet its stated mission of “Helping Small Business Succeed.” Consequently, the Agency
plan limited the SBIC program to only six performance indicators, four of which relate to the
program’s mission and two relate to specific Agency goals, namely to increase the assistance
provided to small businesses owned by women and minorities. In contrast, the Investment Division
itself currently compiles more than 75 operational performance indicators that it uses in the
management of the SBIC program. These are listed in the attached Exhibit A.

       With the exception of customer satisfaction, these indicators span most areas important to
management: investment activity, program growth, oversight factors, liquidation efforts, funding,
and program efficiency. Were one to read only the audit report, one would lose the richness of the
performance measures and indicators that are used to “improve the internal management of the
program,” the second goal of the GPRA.

       For example, we discuss SBIC program results and the value-added for the taxpayer on
pages 14-15 of our first Annual GPRA Performance Report (FY 1999) and point out a number of
outcome-oriented achievements:

       •   Tax revenues generated each year from successful SBIC investments more than cover
           the cost of the program. The American taxpayer’s share of the profits totaled $180
           million.
       •   In FY 1999, SBICs provided $4.2 billion in financing to small businesses.
       •   SBICs, with one-tenth the capital of their larger counterparts, made 53 percent of all
           venture capital deals.
       •   The SBICs program mix changed significantly during FY 1999. The total committed
           capital resources of bank SBICs grew by 35 percent, participating securities grew by 58
           percent and debenture SBICs by 12 percent, but SSBICs decreased by 22 percent.
       •   SBICs invested $55 million in equity capital for women-owned small businesses.
       •   SBICs invested in eight of the Fortune Magazine’s 1999 100 fastest growing firms at
           some point in their development: [FOIA Exemption 4]
                                                                                    Appendix C

       These results are clear and unambiguous and demonstrate true outcomes of the program.

Response to Specific OIG Comments

        Adequacy of Performance Indicators for the SBIC program mission. The statutory
mission of the SBIC program is to “stimulate and supplement the flow of private capital and long-
term loan funds which small business concerns need for the sound financing of their business
operations and for their growth, expansion, and modernization, and which are not available in
adequate supply.” (Original authorizing legislation, 15 USC 661) This mission is accomplished
under the statute through the creation, funding and regulation of privately-owned and operated
Small Business Investment Companies.

        The OIG Report correctly observes that “for fiscal year 1999, the SBIC program had one
annual performance goal, Increase venture capital and six performance indicators.” (Page 4 of OIG
Report) This performance goal is appropriate for the SBIC program as it corresponds directly to the
program’s mission of supplementing the flow of capital to small business. Four of the six indicators
that were selected, namely
        • the number of new SBICs,
        • the amount of capital they added to the program,
        • the absolute number of SBIC financings of small businesses, and
        • the amount invested by SBICs in small businesses
directly and effectively measure the program’s success in accomplishing that mission.

        The other two indicators, the number of SBIC investments that went to minority and to
women-owned businesses, are responsive to an overall Agency goal rather than the program’s
stated statutory mission of providing capital to small businesses in general.

        This statement of the mission has formed the basis on which the SBIC program has operated
from it inception, and it was on this basis that the FY 1999 GPRA performance goal was selected.
The OIG Report, however, concludes that this is insufficient and that the GPRA plan must also
address “whether SBA is providing funds when and where the funds are not in adequate supply.”
(Page 4 of OIG Report.)

        SBA historically has interpreted the statutory phrase “not in adequate supply” as a
Congressional statement of fact justifying the program rather than “a qualifier that requires the
program to focus on specific small business needs” as the OIG Report argues on page 5. This
interpretation of a general need is supported by studies commissioned by SBA’s Office of
Advocacy which found that there are at least 300,000 small businesses growing at a rate of 20
percent per years plus some 80,000 new growth business start-ups each year, all of which would
qualify for venture capital. Against this demand, it is estimated that only 5,187 of the companies, or
1.3 percent of the total, received
.
                                                                                                                  Appendix D


                                              Audit Report Distribution


Recipient                                                                                          Number of Copies


Administrator .............................................................................................................1

Deputy Administrator.................................................................................................1

Associate Deputy Administrator for Capital Access..................................................1

Financial Administrative Staff ...................................................................................1
 Attention: Jeff Brown

General Counsel.........................................................................................................2

General Accounting Office ........................................................................................1
